No. 20-17

IN THE
SUPREME COURT OF THE UNITED STATES
WADE ANTHONY ROBERTSON,
Petitioner,
v.
RICHARD HONN, et. al,
Respondents.
Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

PETITION FOR REHEARING

Wade Anthony Robertson
P.O. Box 20185.
Stanford, CA. 94309
Telephone (866) 845-6003
lawfirm@onebox.com
Pro Se

RECEIVED
NOV - h 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

TABLE OF CONTENTS
PETITION FOR REHEARING

Page
1

GROUNDS FOR REHEARING

1

1

The federal civil judgment

2. The related attorney-disciplinary proceeding
3.

....

5

....

7

The criminal fraud on the federal courts

8

4. Subsequent related proceedings in the
original
Robertson I federal courts in
Washington, D.C

13

CONCLUSION

15

Rule 44.2 Certification

....

-u-

post

Appendix A

INDEX TO APPENDICES
October 8, 2020 Order by the United States
Court of Appeals for the District of Columbia
Circuit in case No. 19-5215
(noting this case in this Court, No. 20-17)

- in -

TABLE OF AUTHORITIES

PAGE(S)

CASES
Florida v. Rodriguez,
469 U.S. 1, 7 (1984)..................................

2

Hazel-Atlas Glass Co. v. Hartford-Empire,
322 U.S. 238 (1944)...................................

3

Lawrence ex rel. Lawrence v. Chater,
516 U.S. 163, 167 (1996)..........................

4

Younger v. Harris,
401 U.S. 37 (1971)....................................

2

STATUTES
28 U.S.C. § 1963

2, 5,7

- IV -

PETITION FOR REHEARING
Pursuant to this Court’s Rule 42.2, Petitioner Wade Robertson petitions for
rehearing of the Court’s October 5, 2020 order denying certiorari in this case.
Petitioner further requests that the Court defer consideration of the petition
pending the United States Court of Appeals for the District of Columbia Circuit’s
forthcoming decision in case No. 19-5215 (“In re: Wade Robertson’), a related case,
and that court’s review on the merits in that case.
Alternatively, petitioner requests that the Court grant the petition, vacate
the judgment of the Ninth Circuit Court of Appeals, and remand so that that court
may take appropriate action in light of the United States Court of Appeals for the
District of Columbia Circuit’s forthcoming action in case No. 19-5215.
GROUNDS FOR REHEARING1
As stated in the Petition, the underlying case involves essentially two
overlapping factual matters— a federal civil judgment entered in Washington, D.C.,
and a related attorney-disciplinary proceeding in California that was factually
based upon: (1) that D.C. civil judgment, and (2) the transcripts of trial testimony
by Defendant-Appellee-Respondent William Cartinhour upon which that same
judgment was procured. As the instant petitioner contended below, the federal
judgment was obtained by a criminal fraud upon the federal courts, which fraud
was orchestrated by the trial attorneys for Mr. Cartinhour while he was mentally
infirm and legally incompetent. On two prior occasions, and prior to the California
1 References to the “Excerpts of Record,” are to the excerpts of the district court proceedings as filed
in the Ninth Circuit Court of Appeals on December 10, 2018 as Dkt.#8 (in six volumes: 8-1 though 86), and are cited herein as to volume #, followed by “ER:”, then page number(s).

-1-

attorney-disciplinary proceedings, related dockets were opened in this Court as
Sup.Ct. case No. 11-6458 and No. 12-5819. In both cases, certiorari was sought for
review of the orders and final judgment that was entered in that same federal D.C.
civil judgment which is now belatedly known to have been procured through
criminal fraud upon the federal courts.
And, as discussed herein below, arguably in both cases, this Court too was
also subjected in some degree to the same fraud on the courts which were
committed to obtain that federal judgment. Accordingly, because of prior case No.
11-6458 and case No. 12-5819, this Court appears to have an interest in the Petition
(and underlying matters) by way of its exercise of the Court’s “supervisory powers.”
See, e.g., Florida v. Rodriguez, 469 U.S. 1, 7 (1984) (Stevens, J., dissenting).
Furthermore, the underlying record in this case has ample factual support as
regards these claims of a prior fraud on the federal courts here in D.C. that it is
incredulous that the California district court, and the Ninth Circuit on review,
would choose to punt on asserting federal jurisdiction based upon the abstention
doctrine of Younger v. Harris, 401 U.S. 37 (1971) (“Younger”). In likewise manner,
the proposition that the district court and Ninth Circuit would refuse to assert
jurisdiction over the fraudulently procured federal D.C. judgment which had been
subsequently registered in California pursuant to 28 U.S.C. §1963, and which was
being relied upon by the State Bar of California in the related attorney-disciplinary
proceeding against Robertson, is both disconcerting and contrary to the prior
established precedents of this Court.

-2-

The assertions in the above paragraph are true because this Court has
previously held that there is an immutable duty to preserve the integrity of the
judicial process. See Hazel-Atlas Glass Co. v. Hartford-Empire., 322 U.S. 238, 64
S.Ct. 997 (1944). In Hazel-Atlas this Court opened up a long-standing judgment
because it was later discovered to be fraudulent. The Court stated as follows:
It is a wrong against the institutions set up to protect and safeguard the
public, institutions in which fraud cannot complacently be tolerated
consistently with the good order of society. Surely it cannot be that
preservation of the integrity of the judicial process must always wait
upon the diligence of litigants. The public welfare demands that the
agencies of public justice be not so impotent that they must always be mute
and helpless victims of deception and fraud.
Id. at 246, 64 S.Ct. at 1001 (emphasis added). Accordingly, for this additional
reason, a grant of certiorari would be warranted either because the decisions of the
courts below conflict with prior precedent of this Court or are, at least, such a
“departure” from the accepted course of judicial proceedings as to warrant this
Court’s exercise of its supervisory powers. See Rule 10.
Moreover, now these maters are further compounded by the fact that a new
case is pending in the United States Court of Appeals for the District of Columbia
Circuit, case No. 19-5215, which is the very same rendering Court of Appeals which
was subjected to the fraud-on-the-courts complained of in this case. And, as
explained below, appellate review in D.C. Cir. case No. 19-5215 is going to include:
(i) review of the entire record of the related California Bar proceedings; and, (ii) the
fact of the same federal civil judgment which it previously unwittingly affirmed but
that was later registered in California; and, (iii) the fact of the federal civil

-3-

injunction action that was filed in the Northern District of California and which
underlies this instant petition; and, (iv) questions of law about whether or not the
California State Bar proceedings which underlie this instant petition were
constitutionally infirm under federal law such that they should not be afforded
reciprocity in the D.C. federal district court; and, (v) questions of law about whether
or not the California State Bar even had subject matter jurisdiction to interject
itself into the D.C. matters in the first instance, and if so, then why did it continue
to rely upon the D.C. federal civil judgment after it was on clear notice that it had
been obtained via a fraud upon the federal courts in D.C.
Accordingly, for these reasons, petitioner respectfully asks that the Court
grant the petition for rehearing, grant the petition for certiorari, vacate the
judgment below, and remand for ultimate disposition in light of the outcome in D.C.
Cir. case No. 19-5215. Such disposition is “potentially appropriate” where an
intervening development “reveal[s] a reasonable probability that the decision below
rests upon a premise that the lower court would reject if given the opportunity for
further consideration.” Lawrence ex rel. Lawrence v. Chater, 516 U.S. 163, 167
(1996) (per curiam). The pending decision by the D.C. Circuit in case No. 19-5215
establishes that there is a substantial prospect that the federal civil judgment
which was registered in California is void for fraud, and therefore the California
Bar proceedings cannot be permitted to continue in reliance upon the fact of that
judgment as if it were legitimate. As an alternative to deferring consideration of
this petition, the Court accordingly should vacate the decision below and return the

-4-

case to the Ninth Circuit Court of Appeals to permit that court to take appropriate
action in light of the D.C. Circuit’s forthcoming action in case No. 19-5215.
Because the legal arguments in support of this petition for rehearing are
grounded in the factual record, an appropriate traverse with citations to the record
follows herewith.
(1.)

The federal civil judgment:

The first matter is a federal court civil judgment originally entered in
Washington, D.C., and then subsequently registered in the Northern District of
California using the federal registration statute, 28 U.S.C. 1963. That federal civil
judgment arose from a business dispute in Washington, D.C., between Robertson
and William Cartinhour, which dispute resulted in a federal civil case between
Cartinhour and Robertson in the District of Columbia, docketed as D.D.C. case
number 09-cv-01642, “Wade A. Robertson v. William C. Cartinhour, Jr.” (“Robertson
F). See Excerpts of Record, 4-ER:715(f402). In the civil case, Mr. Cartinhour was
represented by Maryland attorneys Patrick Kearney and Michael Bramnick. See
Id., 4-ER:714-715(H397,401); 716(111407, 409); 786(11616-617). Based upon the
testimony of Mr. Cartinhour in that civil case, which testimony was disputed, the
federal court entered a judgment in his favor on some, but not all, of his claims. See
Excerpts of Record, 4-ER:655(Hl45-148).
Robertson I was appealed several times to the D.C. Circuit Court of Appeals.
See Excerpts of Record, 4-ER:780-789(H590-627). Of relevance here, it was
appealed first from a preliminary injunction order as D.C. Cir. case No. 10-7033;

-5-

and then appealed again from the subsequent Robertson I final judgment as D.C.
Cir. case No. 11-7026 (consolidated with No. 11-7076). In each of the appeals,
Cartinhour was again represented by Maryland attorneys Patrick Kearney and
Michael Bramnick. See Id. The D.C. Circuit Court of Appeals affirmed both. See Id.
In addition, review of the D.C. Circuit Court of Appeals’ order affirming the
preliminary injunction was sought in this Court, and docketed as case No. 11-6458.
See Id., 4-ER:789-790(U1|628-636). Likewise, review of the Court of Appeals order
affirming the final Robertson / judgment was also sought in this Court, and
docketed as case No. 12-5819. See Id., 4-ER:789-790(HK628-636). In each instance,
attorney Patrick Kearney entered his appearance in this Court as counsel
purportedly on behalf of Mr. Cartinhour. See Id. In case No. 11-6458, Kearney filed
a brief in opposition against the I.F.P. motion (and, by extension, the petition for
certiorari), see id., while in case No. 12-5819 Kearney filed a waiver of the right to
respond. See Id. This Court summarily denied both petitions. See Id.
After the Robertson I trial proceedings were complete, there were ancillary
proceedings that followed; in particular, bankruptcy proceedings related to the now
defunct D.C. partnership between Cartinhour and Robertson. See Id., 4-ER:790795(1(1(637-657). In the bankruptcy proceedings, Mr. Cartinhour was represented
yet again by the same attorney— Patrick Kearney. But, as relevant here, during
those bankruptcy proceedings, Kearney urged the district court when it was sitting
in review of the bankruptcy proceedings to issue an anti-filing injunction order
against Robertson regarding Cartinhour and preventing Robertson from filing any

-6-

new matters related to Robertson I in that same district court—i.e., the U.S.
District Court for the District of Columbia. See 7d.,4-ER:795-799(tH658-675).
Kearney succeeded and the anti-filing injunction issued. See Id.
Subsequently, the federal civil judgment of Robertson 1 from Washington,
D.C., was then registered in the Northern District of California pursuant to 28
U.S.C. § 1963. See Id., 4-ER:800-801(t683); see also id., 4-ER:635-636(f 4). And it
was in California, notably, that the second set of facts arose which underlie the
pending Petition.
(2.)

The related attorney-disciplinary proceeding:

The second matter is a California state bar disciplinary action against
Robertson for his alleged acts of attorney-misconduct, which acts occurred wholly in
the District of Columbia where Robertson was separately licensed to practice law by
the D.C. Court of Appeals.
All of the monies that were collected allegedly for Cartinhour in partial
satisfaction of the Robertson I judgment went entirely to pay attorneys Kearney and
Bramnick, and yet there still remained a large outstanding balance due from
Cartinhour. See Excerpts of Record, 4-ER:769-778(THj558-583). So, consequently,
attorneys Kearney and Bramnick then took the records of the Robertson I civil
judgment and also the transcripts of Mr. Cartinhour’s civil trial testimony in
Robertson I, and they solicited both the D.C. Bar and the State Bar of California to
take some remedial attorney-disciplinary action against Robertson. See Petition at
p.3; see also Excerpts of Record, 4-ER645-647(1H]83-97), 657(^1^ 158-164), 801-

-7-

802(f1|686-694). Kearney and Bramnick petitioned these Bars to take remedial
action so that they could concurrently request monetary reimbursement from each
state bar’s “client security fund.” See Excerpts of Record, 4-ER645-647 (1JH83-97),
801-803(Ht687-694).
The D.C. Bar took no action on their complaints. See Id., 4-ER647 (1J97). By
contrast, the State Bar of California started attorney-disciplinary proceedings, see
id. at 4-ER647-648 (1JH98-102), and the California Bar prosecutors permitted
attorneys Patrick Kearney and Michael Bramnick to participate directly in drafting
the allegations in the formal charging document. See Id., 4-ER:657(1fH158, 160-162).
To defend himself, Robertson issued notices to appear (the equivalents of
subpoenas) at the upcoming California Bar trial to Cartinhour, and to attorney
Bramnick (who had filed the California Bar complaint). See Id., 4-ER808812(H1|713-732). But neither Mr. Cartinhour nor Bramnick appeared at the
California Bar trial. See Id., 4-ER:659(H170); 801(11724). Instead, over Robertson’s
objections, the California State Bar prosecutors submitted “the transcripts and
deposition testimony from Robertson I ‘in lieu of [new] live witness testimony’ [by]
Cartinhour...” See Id., 4-ER:8lO(1(723)]; see also AOB at 14.
(3.)

The criminal fraud on the federal courts:

At center was the intentionally and illegally concealed fact that Mr.
Cartinhour is (and was) legally incompetent and indisputably infirm at all relevant
times with the most severe mental illness of paranoid schizophrenia. See Excerpts
of Record, 4-ER:674-677 (HH249-266). The mental illness of paranoid schizophrenia

-8-

impairs an afflicted person’s ability to accurately report current and historical facts;
furthermore, it also impairs the ability of the schizophrenic individual to be truthful
because of various delusion-based psychosis. See Excerpts of Record, 4-ER:674-677
(If H249-266). All of this was relevant to Robertson I because that civil case was a
dispute between Cartinhour and Robertson about what had allegedly transpired in
their D.C. business partnership from late 2004 until about August of 2009. See
Excerpts of Record, 4-ER:666-674 (1f1{2l3-249); 4-ER:680(H277). Robertson had
been at all times unaware of Cartinhour’s mental infirmity. See Id., 4-ER:674(1f247),
680(1(277). But, in fact, during that same period of time, Cartinhour had been
repeatedly impaired from it, and was also under nearly constant medical treatment
for his schizophrenia by a medical doctor. Id., 4-ER:680(1f278); see also Id., 4ER:680-686.
Of equal importance was the fact that Robertson I was a diversity jurisdiction
case in the federal district court. Under the relevant governing District of Columbia
law, persons with established mental illnesses as severe as chronic paranoid
schizophrenia such as Mr. Cartinhour are not permitted to offer testimony in any
civil proceedings unless and until a competency determination has first been made
beforehand based upon the admission of expert opinion on the question of
competency. See Excerpts of Record, 4-ER:679-680 (K1f273-276). The required
judicial competency determination includes an evaluation by the trial court of “the
ability [of the witness] to accurately perceive, recall, and relate purported facts, as
well as testify truthfully.” Id. And the competency determination must be based

-9-

upon “expert opinion as an aid in deciding competency.” Id.
Likewise, these same presumptions against legal competency to testify also
impact the ability of any attorney to form and subsequently continue an attorneyclient relationship with the paranoid schizophrenic. See Id., 4-ER:678-679 (f f269272). “In the District of Columbia ... the law holds that the active presence of a
mental infirmity as severe as chronic paranoid schizophrenia operates to suspend or
terminate any preexisting attorney-client relationship.” Id., 4-ER:678 (f 270).
Furthermore, in federal court proceedings, Federal Rules of Civil Procedure,
rule 17(b) and 17(c), requires the appointment of a guardian ad litem when a
litigant is incapacitated by a mental infirmity as severe as chronic paranoid
schizophrenia and no representative has already been appointed. See Id., 4-ER:678679 (ff272-273); see also Fed.R.Civ.Proc. 17.
Yet despite this set of controlling laws, in Robertson I there was no required
judicial competency determination at any time by the district court, nor was there
ever any appointment of a guardian ad litem for Mr. Cartinhour. And, by
consequence of the latter, there was no valid attorney-client relationship between
attorneys Kearney and Bramnick and the mentally infirm Mr. Cartinhour.
Attorneys Patrick Kearney and Michael Bramnick had learned prior to
Robertson I of Cartinhour’s mental illnesses and his ongoing treatments for same by
a Maryland-based psychiatrist, and by the time Robertson I was underway they
were likewise aware of Cartinhour’s lack of legal competency to give testimony in
Robertson 1 and of the need for a guardian ad litem to be appointed for Cartinhour

- 10 -

in Robertson I. See Excerpts of Record, 4-ER:714-715(K401); 717-721(K1(413-419).
But they actively concealed all that information from the federal district judge, from
Robertson, and ultimately, from the jury. See Id., 4-ER:719-720(K417); 731(1(448);
739(1(468); 765(1(540). Moreover, they proceeded to represent Cartinhour in the
federal court without the appointment of a guardian ad litem, and without legal
authority to do so. See Id., 4-ER:7l9-720(1(4l7); 731-732(f449); 736-737(1(463);
747(f496); 754(1(520); 765(1(541).
In addition, attorneys Kearney and Bramnick also suborned Cartinhour to
perjure himself in order to hide all the information about his mental illnesses and
historical and ongoing treatments by the psychiatrist, including, in false sworn
answers to written discovery interrogatories which attorneys Kearney and
Bramnick personally certified (see id.,4-ER:728-729(KK441-443)0; then again, in
Cartinhour’s false testimony to the district court judge at the preliminary injunction
hearing (see id., 4-ER:733-735(K1(454-459)); and finally, in Cartinhour’s false
testimony to the jury at the trial. See /d.,4-ER:754-756(U1f520-527).
But attorneys Kearney and Bramnick also criminally obstructed a federal
subpoena for the production of Cartinhour’s medical records to prevent Robertson,
the district judge, and jury from learning in Robertson I about the psychiatrist’s
past and still ongoing treatments of Cartinhour’s schizophrenia, including the
history of those treatments during the times when Cartinhour had been active in
the D.C. partnership with Robertson. See Id., 4-ER:739-744(K1f469-483); 746751(1(1(491-511).

- 11 -

Further still, when Cartinhour experienced a psychotic schizophrenic episode
on the eve of the Robertson I trial, and was consequently clearly not legally
competent to testify, Kearney and Bramnick intentionally hid that incident from
the trial court. See Excerpts of Record, 4-ER:753-754(1H|519-520); 752-753(^11512515); 754-755(U522). And they then proceeded to trial with Cartinhour, using a de
bene esse trial deposition in lieu of a personal appearance, and suborned from
Cartinhour perjuriously false testimony that both they and Cartinhour knew was
(1) factually untrue, (2) was contrary to the facts recorded in the medical records
which they had obstructed from discovery, and (3) which relevant factual assertions
by Cartinhour in his testimony were factually impossible in light of the nature of
Cartinhour’s mental illnesses. See Id., 4-ER:756-765(U!1526-540). As a consequence,
Kearney and Bramnick were able to procure the Robertson I civil judgment. See Id.,
4-ER:766-769(UU544-547, HK552-556).
In the same manner, when Robertson I was appealed to the D.C. Circuit
Court of Appeals from both the preliminary injunction order (D.C. Cir. case No. 107033) and then the subsequent Robertson I final judgment (D.C. Cir. case No. 117026) neither attorney Kearney nor Bramnick made any disclosures to the Court of
Appeals about Mr. Cartinhour’s ongoing mental illnesses and lack of legal
competency, nor about the need for the appointment of a guardian ad litem during
the appellate proceedings when Cartinhour was still impaired— nor, almost of
course, about their own acts of fraud and misconduct in the Robertson I district
court. See Id.

- 12 -

And in likewise manner, when review by petition for certiorari was sought in
this Court in cases No. 11-6458, and No. 12-5819—and attorney Kearney entered
his appearance purportedly for Mr. Cartinhour- no disclosures regarding any of the
above was made to this Court. See Id., 4-ER:789-790(THJ628-636). And, as a
consequence of Cartinhour’s infirmity and resulting incompetency, attorney
Kearney did not even have the legal authority to appear for him in either of those
cases in this Court. See Id.
(4.)

Subsequent related proceedings in the original Robertson I
federal courts in Washington, D.C.:

Two relevant events have transpired subsequent to Robertson I and the
commencement of the State Bar of California’s disciplinary proceedings against
Robertson. First, in a subsequent related case in the District Court for the District
of Columbia, D.D.C. case No.l:16-mc-02240, in an October 14, 2016 hearing, the
federal district court’s own “Committee on Grievances” judicially admitted to a
panel of three federal district judges the fact that Mr. Cartinhour is a paranoid
schizophrenic, that his disability of paranoid schizophrenia was perjuriously
withheld and undisclosed in the prior Robertson I proceedings, and that to the
extent Mr. Cartinhour’s attorney Mr. Kearney had been complicit in those non­
disclosures there may in fact have been a criminal fraud on the federal court by
Cartinhour and his trial attorneys in Robertson I to obtain that civil judgment that
was adverse to Robertson. See “Plaintiff-Appellant’s Motion for Sanctions and to
Strike attorney’s appearance,” filed Dec.-16-2019 as Dkt.#78-1 (with exhibits) in the
9th Circuit at Exhibit 39 (at pp.33-36 therein).

- 13 -

Second, because the State Bar of California refused to stay its disciplinary
recommendation while the underlying federal injunction action was already
pending, attorney discipline was forthwith imposed in California against Robertson,
and that act then resulted in the imposition of reciprocal professional disciplinary
proceedings in other courts— including in the same Washington, D.C., district court
where Robertson I was entered. And now currently pending in the D.C. Circuit
Court of Appeals is case No. 19-5215, a case in which the D.C. Circuit is set to
review the question of whether or not reciprocal attorney discipline should be
imposed against Robertson based upon the actions by the State Bar of California in
disciplining Robertson, and by consequence, to necessarily review the validity of the
prior Robertson I judgment which that court had affirmed and which the California
State Bar had subsequently relied upon.
The record on review in D.C. Circuit case No. 19-5215 contains: (1) the
entirety of the administrative record from the California State Bar proceedings;
and, (2) a copy of the verified amended complaint that was filed in the Northern
District of California in the same case which underlies this petition; and, (3) ample
additional (and un-rebutted) evidence from multiple witnesses in support of the
veracity and accuracy of the allegations of the fraud on the court in the prior
Robertson I proceedings as were set forth in the verified complaint in the California
injunction action which underlies this instant petition. Moreover, the D.C. Circuit
in case No. 19-5215 has already issued an order taking judicial notice of the abovenoted related case in that district, i.e., D.D.C. case No.l:16-mc-02240.

- 14 -

In examining the question as to whether the imposition of reciprocal attorney
discipline is appropriate, appellate review in D.C. Cir. case No. 19-5215 is expected
to include: (i) review of the record of the related California Bar proceedings; and, (ii)
a review of the validity, or invalidity, of the Robertson I civil judgment which was
relied upon by the California State Bar in its discipline; and (iii) questions of law
about whether or not the California State Bar even had subject matter jurisdiction
to interject itself into the D.C. matters in the first instance, and if so, then why did
it continue to rely upon the Robertson I federal judgment after it was on clear notice
that it had been obtained via a fraud upon the federal courts in D.C. Furthermore,
the Court will note from Appendix A hereto, that the D.C. Circuit is forthwith
prepared to proceed in No. 19-5215 absent a grant of certiorari by this Court.
CONCLUSION
For the reasons presented above and in the petition for certiorari, this Court
should defer consideration of this petition for rehearing pending the United States
Court of Appeals for the District of Columbia Circuit’s forthcoming decision in case
No. 19-5215 (“In re: Wade Robertson”), at which time the petition for rehearing
should be granted. In the alternative, the Court should grant the petition
immediately, vacate the lower court’s judgment, and remand for an appropriate
disposition in light of the United States Court of Appeals for the District of
Columbia Circuit’s forthcoming decision in case No. 19-5215.

Respectfully Submitted,
Date: October 30, 2020

Wade Anthony Robertson (Pro Se)
P.O. Box 20185; Stanford, CA. 94309
Ph: (866) 845-6003; lawfi.rm@onebox.com

- 15 -

RULE 44.2 CERTIFICATION OF COUNSEL OR PARTY PRO PER
Petitioner Wade Robertson, appearing pro per, hereby certifies that this
petition for rehearing is restricted to the grounds specified in Rule 44.2 and is
presented in good faith and not for delay.

Respectfully Submitted,
Date: October 30, 2020

Wade Anthony Robertson (Pro Se)
P.O. Box 20185; Stanford, CA. 94309
Ph: (866) 845-6003;
lawfirm@onebox.com

- Rule 44.2 Certification -

<

APPENDIX A

USCA Case #19-5215

Filed: 10/08/2020

Document #1865546

Page 1 of 1

Jitaies OLtmrt of ^Appeals
For The District of Columbia Circuit

September Term, 2020

No. 19-5215

1:19-mc-00136-UNA
Filed On: October 8, 2020 [1865546]
In re: Wade Robertson,

Wade Robertson,
Appellant
v.
Committee on Grievances for the United
States District Court for the District of
Columbia,
Appellee
ORDER
Upon consideration of the motion to hold this case in abeyance pending the
completion of proceedings before the United States Supreme Court in No. 20-17, and it
appearing that appellant’s petition for writ of certiorari in No. 20-17 was denied on October
5, 2020, it is
ORDERED that the motion to hold this case in abeyance be dismissed as moot.
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is/
Catherine J. Lavender
Deputy Clerk

No. 20-17

i

IN THE
SUPREME COURT OF THE UNITED STATES
WADE ANTHONY ROBERTSON,
Petitioner,
v.
RICHARD HONN, et. al,
Respondents.
Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.2(b), and as permitted by this Court’s
Order dated April 15, 2020 relating to “COVTD-19,” I, Wade Robertson, hereby
certify that the PETITION FOR REHEARING does not exceed 15 pages in
length, excluding the parts that are exempted by Supreme Court Rule 33.1(d).
I declare (or certify, verify, or state) under penalty of perjury under the laws
of the United States of America that the foregoing is true and correct.
Executed this day:
Dated: October 30, 2020

By:
Wade Robertson

